<html>
<title> - [H.A.S.C. No. 114-62]TRANSITION ASSISTANCE PROGRAM--A UNITY OF EFFORT</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                                  
                         [H.A.S.C. No. 114-62]

                    TRANSITION ASSISTANCE PROGRAM--

                           A UNITY OF EFFORT

                               __________

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON MILITARY PERSONNEL

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            OCTOBER 28, 2015


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


                               ___________
                               
                               
                         U.S. GOVERNMENT PUBLISHING OFFICE
97-496                           WASHINGTON : 2016                         
             
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0f687f604f6c7a7c7b676a637f216c606221">[email&#160;protected]</a>  
  


                   SUBCOMMITTEE ON MILITARY PERSONNEL

                    JOSEPH J. HECK, Nevada, Chairman

WALTER B. JONES, North Carolina      SUSAN A. DAVIS, California
JOHN KLINE, Minnesota                ROBERT A. BRADY, Pennsylvania
MIKE COFFMAN, Colorado               NIKI TSONGAS, Massachusetts
THOMAS MacARTHUR, New Jersey, Vice   JACKIE SPEIER, California
    Chair                            TIMOTHY J. WALZ, Minnesota
ELISE M. STEFANIK, New York          BETO O'ROURKE, Texas
PAUL COOK, California
STEPHEN KNIGHT, California
               Jeanette James, Professional Staff Member
                Craig Greene, Professional Staff Member
                           Colin Bosse, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Davis, Hon. Susan A., a Representative from California, Ranking 
  Member, Subcommittee on Military Personnel.....................     2
Heck, Hon. Joseph J., a Representative from Nevada, Chairman, 
  Subcommittee on Military Personnel.............................     1

                               WITNESSES

Iacocca, BG James, USA, Adjutant General, U.S. Army..............    20
Kelly, Dr. Susan, Director, Transition to Veterans Program 
  Office, Office of the Secretary of Defense.....................    18
Larry, Horace, Deputy Director of Air Force Services, Deputy 
  Chief of Staff for Manpower and Personnel, Headquarters U.S. 
  Air Force......................................................    23
Mahoney, Sean, Executive Director, zero8hundred..................     5
Mann, Scott, American Dream U....................................     4
Randazzo, Phil, Founder, American Dream U........................     3
Whitman, MajGen Burke, USMC, Director, Marine and Family Programs 
  Division, U.S. Marine Corps....................................    19
Yavorski, Thomas, Executive Director, 21st Century Sailor Office, 
  U.S. Navy......................................................    22

                                APPENDIX

Prepared Statements:

    Heck, Hon. Joseph J..........................................    35
    Iacocca, BG James............................................    82
    Kelly, Dr. Susan.............................................    60
    Larry, Horace................................................    97
    Mahoney, Sean................................................    51
    Mann, Scott..................................................    43
    Randazzo, Phil...............................................    36
    Whitman, MajGen Burke........................................    73
    Yavorski, Thomas.............................................    89

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Coffman..................................................   107

Questions Submitted by Members Post Hearing:

    Mr. Knight...................................................   111
    Mr. Walz.....................................................   111
            
 
            TRANSITION ASSISTANCE PROGRAM--A UNITY OF EFFORT

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                        Subcommittee on Military Personnel,
                       Washington, DC, Wednesday, October 28, 2015.
    The subcommittee met, pursuant to call, at 3:38 p.m., in 
room 2212, Rayburn House Office Building, Hon. Joseph J. Heck 
(chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. JOSEPH J. HECK, A REPRESENTATIVE FROM 
      NEVADA, CHAIRMAN, SUBCOMMITTEE ON MILITARY PERSONNEL

    Dr. Heck. We will go ahead and call the hearing to order 
again. I apologize for the delay.
    Just as a disclaimer, we are going to have another vote 
series somewhere around 4:50 to 5:20. So while we did ask 
initially for the witnesses to make their statements 5 minutes 
in length, we are going to ask if you can try to condense it to 
3 minutes to the best of your ability. And we will make sure 
that your written statements are entered in their entirety into 
the record. Our hope is to at least get through the first panel 
before the next vote series.
    So I want to welcome everyone to this hearing where our 
focus is on the collaboration between the Department of Defense 
and private organizations to assist service members who are 
transitioning to civilian life.
    We are all well aware that the Army and the Marine Corps 
are downsizing, with a plan to reduce 40,000 soldiers and 2,000 
Marines by 2018. Undoubtedly, such cuts put strain on our 
service members and their families. These reductions in end 
strengths represent additional service members that will be 
asked to leave the military on top of the more than 165,000 
service members that separate every year.
    We owe these transitioning service members and their 
families a robust system that prepares them for life after the 
military. We want to make sure they can continue to make the 
same caliber of contributions to society once they take their 
uniforms off that they made to our Nation's security while in 
uniform.
    Today's hearing continues our commitment to ensuring that 
the Transition Assistance Program meets the needs of 
transitioning service members, not only through a whole-of-
government approach but also by partnering with organizations 
who share our commitment to help service members successfully 
transition from military service.
    I am interested to hear from our first panel how they 
connect with individuals who are leaving the military and what 
services they offer to assist. I am also interested to hear 
from our DOD [Department of Defense] and military services how 
they include organizations such as those represented here today 
in the Transition Assistance Program.
    In response to the increasing need to help prepare 
individuals for post-service opportunities such as employment, 
higher education, or entrepreneurial endeavors, Congress and 
DOD have continually worked to improve the Transition 
Assistance Program. So I am interested to hear from our DOD and 
military service witnesses whether the recent changes have 
produced the desired results. For example, in your view, are 
service members transitioning today better prepared for post-
service life as compared to those transitioning 5 years ago?
    With that, I want to welcome our witnesses, and I look 
forward to our testimony.
    Before I introduce our first panel, let me offer 
Congresswoman Susan Davis an opportunity to make her opening 
remarks.
    Mrs. Davis.
    [The prepared statement of Dr. Heck can be found in the 
Appendix on page 35.]

    STATEMENT OF HON. SUSAN A. DAVIS, A REPRESENTATIVE FROM 
 CALIFORNIA, RANKING MEMBER, SUBCOMMITTEE ON MILITARY PERSONNEL

    Mrs. Davis. Thank you, Mr. Chairman.
    As we know, each year, over 100,000 service members 
transition out of Active military service back into civilian 
society. The Department and the military services have made 
considerable strides--my notes here say ``great strides.'' I am 
not so sure I am willing to say ``great strides,'' but 
considerable strides toward improving the Transition Assistance 
Program. It has evolved from one mandatory class to an 
integrated effort between the service member, the chain of 
command, and the transition assistance cadre, spanning several 
months or even longer, to ensure our young men and women are 
set up for success.
    Although improvements have definitely been made, as our 
witnesses I know will attest today, there is still much work to 
be done. Our first panel represents one area in which the 
Department needs continued improvement and involvement, working 
with qualified civilian organizations that maintain the 
momentum of transitioning service members back into society. I 
certainly look forward to hearing from our first panel on their 
two different approaches to helping service members transition. 
Both of these organizations, of course, are innovative and 
potentially life-changing.
    We will also be hearing from the second panel on how DOD 
and the services plan to work with organizations such as 
zero8hundred and American Dream U to improve successful 
transition of our service members back into the community. 
Definitely, their response to what you present and you bring is 
very important to us, as well.
    Thank you, Mr. Chairman. I look forward to our witnesses.
    Dr. Heck. Great.
    So I will introduce our first panel. We have Mr. Phil 
Randazzo, founder of American Dream U; Mr. Scott Mann with 
American Dream U; and Mr. Sean Mahoney, Executive Director of 
zero8hun-
dred.
    Again, I ask the witnesses to condense, to the best of 
their ability, their testimony.
    And, with that, Mr. Randazzo, you are recognized for 3 
minutes.

     STATEMENT OF PHIL RANDAZZO, FOUNDER, AMERICAN DREAM U

    Mr. Randazzo. Chairman Dr. Heck, Ranking Member Susan 
Davis, and distinguished members of the committee, it is truly 
an honor to be invited to testify in front of such an esteemed 
body. Thank you for the opportunity.
    If we had to assure that every single veteran transitioning 
out of the military was able to extract every ounce of clarity 
and value from his or her own experience, resume, drive, 
discipline, personality, and follow-through to have the best 
chance, to get the best job, how would we in this room do that?
    In founding American Dream U, I have had the opportunity to 
bring in over 140 world-class entrepreneurs and business 
leaders across 8 installations, including the Pentagon. They 
have shared their successes, failures, insights, tactics, and 
strategies with Active Duty military, spouses, dependents, and 
veterans.
    I would like everyone in this room to look back and think 
and connect the dots, how they got here. I would argue that it 
is the people you met and the books you read, not the books you 
read in high school or in college, but the books that were 
recommended to you by friends and colleagues; not the people 
you met in college or in high school, but maybe a company 
commander, an event you attended, or a friend introduction.
    What I have noticed is some negative talk surrounding 
becoming an entrepreneur or entrepreneurial thinking. The 
service members are getting pigeonholed into whatever their MOS 
[military occupational specialty] was in the military for job 
opportunities during transitioning. From speaking to hundreds 
of service members, I am not convinced this is a path to a 
successful transition.
    I had the opportunity to speak to the folks at the VA 
[Department of Veterans Affairs], when discussion of becoming 
an entrepreneur came up, we heard, ``Ninety-six percent of 
businesses fail. We want them to have a degree, that 
certificate on the wall, plan B.'' Does that general degree 
carry as much weight as it does in 2015?
    Dozens of service members at our conferences have asked 
this question: ``We have been trained since the first day of 
boot camp that failure is not an option; it results in a 
teammate getting injured or killed. We have heard from all your 
speakers that failure is okay and even encouraged. I am 
struggling with this.'' I think the discussion during the 
transition needs to address this. It is okay to fail in the 
civilian world. Everyone in this room has had failures, and 
that is okay, even valuable.
    I think the people who run transition are great Americans. 
I am not convinced they are open to new ideas, up to the latest 
tactics and strategies, or emphasize the importance of finding 
your purpose, self-education, the value of networking, and 
finding a great mentor. Self-education is extremely important.
    In 2015 and beyond, the area of focus needs to be in the 
technology space, robotics, health care, finances. Nano 
certificates, job apprenticeships, and job shadowings need to 
be encouraged.
    Twelve months before transitioning out of the military, I 
think every veteran, soldier, marine, airman, sailor, 
coastguardsman, spouse should read books like ``Start With 
Why'' by Simon Sinek, ``Think and Grow Rich'' by Napoleon Hill, 
``How to Win Friends and Influence People'' by Dale Carnegie. 
Simon Sinek has been paid by several installations and has 
spoken at the Pentagon. We think we can do better.
    In working with hundreds of businesses over my 20-plus-
years career as an entrepreneur, the number-one hiring criteria 
is finding those that are flexible, resourceful, show 
initiative, work well with teams, and show up on time. This 
defines the veteran. We owe our military to strive to do 
better.
    It has been an honor and a privilege to work with our 
military, and I am constantly humbled in their presence.
    I look forward to your questions or comments.
    [The prepared statement of Mr. Randazzo can be found in the 
Appendix on page 36.]
    Dr. Heck. Thank you.
    Mr. Mann.

           STATEMENT OF SCOTT MANN, AMERICAN DREAM U

    Mr. Mann. Chairman Heck, Ranking Member Susan Davis, and 
distinguished members of the committee, thanks for the 
opportunity to tell you the transition story of warriors, our 
warriors, who just don't seem to have quite the voice these 
days that they probably should.
    I have spent my entire life as a U.S. Army Special Forces 
Green Beret, and in those 22 years of service in many dark 
places around the world, one thing I have learned is the 
benefit of going local, immersing yourself in the problem to 
get a perspective of what is going on. And that is the 
perspective that I would like to provide you today on 
transition.
    As an entrepreneur and advocate for nonprofit work in 
transition, I work with military members as I train them in 
special skills but also working with them as they prepare to 
leave the service that they know and love.
    The other day, I was talking to a special ops master 
sergeant, I will call him Steve, who was going through 
transition from the Army. And I hadn't seen him in a while, so 
I asked him how things were going. Do you know what he told me? 
He said that he would rather go back to Afghanistan four more 
times than to ever go through transition again.
    How is that possible? Here is a man who has known more 
pain, suffered more family stress, lost more friends, and seen 
more violence than any warrior I know of, yet he would go back 
and do it all again four more times than to ever go through 
transition again. Something isn't working.
    The challenges of transition, having gone through them 
myself, are enormous. Our service men and women have been 
fighting the longest war in our Nation's history. The corrosive 
arena of combat is placing unprecedented strain on not just our 
military men and women but their families. They face a massive 
drawdown, as well. And as ISIS [Islamic State in Iraq and 
Syria] and other extremist groups expand, the stress of 
operational tempo on those service members who remain in 
service is likely to go even higher, which is going to mean 
less time for them to prepare for transition and even more 
stress for transition in the future.
    Whether these warriors get out of the military unexpectedly 
due to a drawdown or whether they get out on a scheduled 
departure, as I did, they will likely have fresh dust on their 
boots, gunpowder residue on their hands, and not a lot of time 
to even remotely contemplate the challenges of transition. Add 
these to a tough economy and a low job market, and it is no 
wonder that many of our veterans are terrified of coming home.
    Now, that is the tough news. But let's not forget that 
these warriors are high performers. They are complex problem 
solvers. Our warriors possess immense leadership skills that, 
frankly, society is demanding more and more every day. So the 
question is, how do we bring them home and integrate them into 
the communities that desperately need their leadership and 
their loyalty?
    Well, again, this Green Beret's perspective from the 
village, a few things: One, this problem is probably going to 
get worse before it gets better. Two, the current DOD and VA 
programs of transition are simply overmatched for this massive 
undertaking. And, three, the private sector is essential in 
bringing home our veterans to a life of honor and happiness.
    To expound a bit further,and I hope I get a chance to 
expand on this today, is we must help our veterans reconnect to 
their higher purpose. We should connect our veterans to 
relevant civilian players in the community. And we need to 
empower veterans to learn how to tell their story when they 
come home. I believe that this is a challenge for both the 
private sector and the public sector and that history is going 
to judge us on our ability to do that.
    One of my best friends and former soldiers, Romy Camargo, a 
quadriplegic wounded in Afghanistan 7 years ago, working with 
just a six-person advisory board from the community in Tampa, 
Florida, in just over a year managed to raise $750,000 and open 
a nonprofit center that is treating dozens of people, to 
include severely wounded veterans.
    My belief is that if the community can come together under 
those kinds of extreme situations, there is nothing that we 
can't do when we partner with folks like Mr. Randazzo and our 
military leadership.
    Thank you for your time.
    [The prepared statement of Mr. Mann can be found in the 
Appendix on page 43.]
    Dr. Heck. Thank you.
    Mr. Mahoney.

  STATEMENT OF SEAN MAHONEY, EXECUTIVE DIRECTOR, ZERO8HUNDRED

    Mr. Mahoney. Chairman Heck, Ranking Member Davis, 
distinguished members of the subcommittee, thank you for the 
opportunity to appear today. I would like to explain a 
partnership with military bases in San Diego that provides a 
community handoff from transition classes.
    Every year, approximately 20,000 service members stationed 
in San Diego County leave the service, and 30 percent are 
expected to stay in the area. Many of these individuals 
experience difficulty with transition.
    San Diego community leaders realized that numerous 
organizations were there to assist but there was a gap between 
these resources and service members, who are often unaware of 
them. These leaders developed a plan to close this gap without 
duplicating existing services. This was called the Military 
Transition Support Project [MTSP] and implemented as 
``zero8hundred'' to illustrate the promise that comes with a 
new day.
    Zero8hundred addresses four areas of veterans' wellness: 
employment and education, health, basic needs, and personal 
connections. Zero8hundred provides transition support from 9 
months prior to separation to 12 months afterwards. This begins 
with a presentation on base at Navy and Coast Guard transition 
classes, where those remaining in San Diego County have the 
opportunity to opt in.
    These zero8hundred clients are called VIPs, for Veterans or 
Spouses in Process, and they get proactive check-ins, starting 
with a call the following week from a zero8hundred navigator or 
caseworker. All of our caseworkers are either veterans, 
military dependents, or spouses, and all are in a master's of 
social work program or have a master's of social work.
    The partnership with local military bases began in 2013 
with a memorandum of understanding [MOU] with Navy Region 
Southwest that was signed in 2014. That allows the program to 
be presented during the classes. The MOU also indicates that 
MTSP's zero8hundred is responsible for providing an essential 
organizing point for community resources. The program does this 
by utilizing 2-1-1, San Diego's database of 6,000 vetted 
resources in the community, to make them available to anyone 
who is transitioning.
    We train Navy contract instructors to make the 
presentations in the TGPS [Transition, Goals, Plans, Success] 
classes and began at Naval Base San Diego in January of this 
year. We expanded to Naval Base Coronado in February and the 
Coast Guard in March.
    The first 2 years of the program are the pilot phase, and 
the goal of the initial stage was to evaluate the impact on the 
first 300 VIPs. Response has been very positive, and we hit 
this 300 enrollment goal 8 months into the program. It has been 
presented on 89 transition classes on base, and over 30 percent 
of eligible personnel have opted into the program. Many also 
choose to self-navigate to resources via our Web site, and 
9,000 sessions have been recorded.
    Zero8hundred navigators have been reaching out to these 
VIPs to discuss their challenges, to handle case management, 
and to offer warm referrals to organizations that can assist 
them, and then follow up to see how they were helped. 
University of San Diego's Caster Family Center is conducting a 
third-party evaluation to measure outcomes.
    We value our positive relationship with the military bases 
that help make this community initiative possible. And I want 
to thank you, and I look forward to your questions.
    [The prepared statement of Mr. Mahoney can be found in the 
Appendix on page 51.]
    Dr. Heck. Thank you.
    I thank you all for being so succinct in your opening 
comments. Hopefully, we will have enough time to delve more 
deeply into your written testimony as well as the questions.
    Mr. Randazzo, tell us how you connect with individuals who 
are leaving the military to introduce them to American Dream U 
and the programs you offer. How do you get access to them? Are 
you going on base? Is it base-to-base? Is it a pilot program? 
How are you reaching out and touching those lives?
    Mr. Randazzo. Yeah, so we just came back from Fort Bragg, 
and we were invited by the DC [deputy commander] General Jeff 
Smith. And so we work, typically, with the garrison and then 
the TAP [Transition Assistance Program]. And then we have also 
been introduced to the BOSS, the Better Opportunity for Single 
Soldiers. We did an event for their national conference last 
month, where Mr. Mann spoke.
    And so we are going to be hitting all of the Transition and 
the BOSS. And so we have done 13 events, Mr. Chairman, at 9 
different installations. We have had a little over 4,000 
attend. And I can provide feedback from those.
    Dr. Heck. But how do you get access or how do you get to 
each one of those locations? Is it by invitation? Or are you 
going and soliciting and saying, ``Hey, we are here. Can we 
come on base?'' How does that work?
    Mr. Randazzo. So we have been working through the CGs 
[commanding generals], through the commanders. So Fort Bragg 
was our third event. So they saw something in the first event, 
so they invited us back for a second and third. We have been to 
Fort Hood twice. We are heading back to Fort Benning for a 
second time. So we have asked to come, and then we have been 
invited back.
    Dr. Heck. Okay.
    So has there been any thought given or any attempts made to 
approach DOD of making this, you know, a program that is 
offered automatically across installations, as opposed to you 
having to go and, you know, present yourself to each CG at each 
installation and get access?
    Mr. Randazzo. I wouldn't even know, Chairman, how to even--
--
    Dr. Heck. Okay.
    Mr. Randazzo [continuing]. Start to ask the DOD to be a 
part of the program.
    Dr. Heck. Yeah, neither would we, but we will get to that.
    So it is clear from your testimony that American Dream U 
focuses on entrepreneurship and leading within organizations. 
It is kind of like the ``Shark Tank'' of transition.
    TAP GPS [Goals, Plans, Success] includes optional tracks, 
one of which focuses on entrepreneurship. Are you familiar with 
that track? And if so, what is your view of the information 
provided? And what recommendations do you have to improve that 
program?
    Mr. Randazzo. So I would like to be clear: So we are not 
just entrepreneurship programs. We talk about different tactics 
and strategies to find jobs. I didn't get to it in my opening 
statement, but LinkedIn is not talked about in class, and I 
heard today that it is going to start to be. I think that is a 
very effective way to get connected with jobs. We talk a lot 
about different tactics on how to find a job that you actually 
don't need an alarm clock to wake up to go to.
    But, yeah, so I have reviewed all the Boots to Business 
program that is run by the SBA [Small Business Association]. I 
think it is very academic. I am an entrepreneur, and I like to 
learn from people who have actually done it. And so I think 
part of our program being effective is bringing in those 
entrepreneurs and kind of cutting in line, learning from the 
masters, versus maybe reading out of a manual. But I think it 
is definitely a start if someone wants to be an entrepreneur.
    Dr. Heck. Great. Thank you.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    Thank you all again for being here.
    I remember quite a number of years ago how difficult it was 
to start coordinating some of the efforts out there. And it 
seemed like everybody wanted to help, which was wonderful, but, 
on the other hand, it was really important to try and figure 
out what the goals were, I think, for different organizations.
    And so I am wondering whether the programs that you know 
about in other areas--and your focus has been on the 
entrepreneurial piece of that, to a certain extent, and Mr. 
Mann as well. I am thinking with Mr. Mahoney--whether does all 
that sort of resonate together? Or do you see these programs as 
distinctly very, very different?
    Mr. Mahoney. Ma'am, I can give our perspective on that.
    Zero8hundred welcomes the different diverse programs that 
are out there. I think they are different, and I think that 
that is great, even if there is some overlapping. But we would 
like to be in a position to offer two or three solutions to a 
service member when they get out and refer them to them and see 
which one they choose, which one is best for them. So I think 
that that is excellent.
    Mrs. Davis. Uh-huh. So providing multiple tracks but also 
you are, perhaps by the emphasis, you are able to do a lot in 
that area.
    Mr. Mann. Correct. And with my smaller nonprofit, Mission 
America, and working closely with Mr. Randazzo, you are right, 
I mean, there are tens of thousands of nonprofits out there, 
all, most of them, really trying to do good things. But as a 
veteran who transitioned, it is overwhelming when you see the 
number of folks out there. It is hard to sort it out.
    I believe the doors are wide open right now for a no-
kidding, strong private-public partnership on this that is very 
collaborative and allows groups like American Dream U and 
Mission America, where I go in and talk to veterans, as a 
veteran who is an entrepreneur and has transitioned, about what 
they are going to see on the other side, to be positioned 
players and be supporting efforts to DOD as they step through 
this, just with the acknowledgement that it is more than a TAP 
program, it is really, it is a process.
    Transition is a, the Green Beret Foundation calls it ``The 
Next Ridgeline.'' It is a long patrol. It is not something that 
is done in 10 days. It is a process like any other mission. And 
that is why I named it Mission America, is because it really is 
about getting these guys and gals with the right skill sets and 
looking at it as another mission, holistically, beyond just 
jobs and entrepreneurialism. So collaboration is going to be 
essential.
    Mrs. Davis. Uh-huh. Yeah.
    If I may, Mr. Mahoney, one of the issues sometimes 
organizations find is that when they are involved in mentoring 
programs or ways in which the community is really playing a 
critical role, sometimes that staying power is a little tough 
to achieve. I think often it is based on having good 
facilitators, good follow-up, a kind of esprit de corps among 
the people that are engaged in this.
    Have you found that to be helpful? How does that happen, 
you know, that you have people who really are staying with the 
cause and feel very, very much indebted? It is a two-way 
street. You know, it is not that person is sacrificing by being 
part of this program, but getting so much out of it.
    And so I wanted you to speak to that for a second and, 
also, how that is happening in your Tier 3-level VIPs, whether 
you are finding a need to have people with special skill sets 
that really are able to relate far better to Tier 3 VIPs.
    Mr. Mahoney. Yes, ma'am. I would say that it is a challenge 
sometimes to get people to continue to focus on their own 
transition as they are getting out. And one of the lessons that 
we have learned is it is more difficult for us--our VIPs to 
enroll 9 months prior to separation, and they are much more 
actively involved in their transition maybe 90 days before they 
get out, because they start to realize that it is coming up 
very quickly. So we do get a change in their focus at that 
point.
    I will say, on the flip side of it, in the veteran's 
community, there is a lot of commitment for folks to stay with 
the cause and help them out. And a lot of times they are 
frustrated that the service members aren't coming to them.
    Mrs. Davis. Oh, okay. Yeah.
    In those situations, then, who works to try and make sure 
that that relationship is building so that it is a satisfactory 
one on both sides?
    Mr. Mahoney. We do, ma'am. Well, one thing we do is we have 
the different--many of the different resources and agencies 
come meet with our navigators, so our navigators are familiar 
with many of the different nonprofits and their different areas 
of emphasis. And that way, when our navigators explain the 
resources that are available to the VIP, they can explain it in 
a way that it is really a handoff. It is a personal connection, 
that they will do a personal referral and a warm handoff to 
that agency.
    And to answer your question about the Tier 3, it is hit or 
miss. I mean, some of our folks are Tier 3, where they may be a 
single mom getting out with a small child. Maybe they are going 
to be evicted in a week. And they might be very, very engaged 
with our navigators. And some, it is frustrating that they will 
be engaged and then they will drop off and try to handle things 
themselves.
    Mrs. Davis. Does there seem to be a difference whether you 
are in face-to-face contact or by telephone, by cell? What are 
you advising people to use, in terms of their method of 
engaging?
    Mr. Mahoney. We engage mostly by phone, ma'am. And then for 
a Tier 3 VIP, we would encourage them to come into the office.
    Mrs. Davis. Okay. Thank you.
    Mr. Randazzo, you mentioned that you hadn't yet--my time is 
up. We will go another round. Thank you.
    Thanks so much.
    Dr. Heck. Ms. Tsongas.
    Ms. Tsongas. Thank you all for being here. I appreciate the 
commitment you obviously all demonstrate as you are responding 
to different needs that you have identified within the 
transition services that are being provided.
    And just to add a little context to that, every year I have 
a meeting with a roundtable of veterans from the 3rd District 
of Massachusetts. We have a great tradition of service. And, 
just last week, I was able to meet with them, and, in the 
course of it, I always do ask, sort of, how the programs that 
are out there are addressing their needs.
    We met in a university setting, so I was glad to hear that 
the GI Bill had made a real difference for many of those 
returning. A good number of them had taken advantage of it, 
were at the university and getting the degrees that they needed 
to go on.
    But one of the themes that I really heard was that 
transition assistance has to be more than a one-time event and 
that it needs to be broad enough to enable veterans to make the 
most of all the different services that are out there, so 
whether they are medical, financial, educational, whatever it 
may be that are open to them and their families.
    So even the GI Bill, for example, may not seem like the 
right thing when you are first getting out of the services, 
but, as you ease into your new life, suddenly it looms larger 
as an opportunity.
    And as outreach programs do exist--as I said, you all are 
responding to needs that you have identified--I have found that 
veterans I have spoken to often are not fully aware of the 
range of programs or even the existence of the kinds of 
organizations that you represent and the benefits that are 
available to them.
    And, again, what we heard, I think, from all of them and 
have heard over time is that the program has to reflect a long-
term commitment, that they have to be responsive to them in a 
long-term setting, especially in the job market, in the era of 
seeking jobs, because that market is so dynamic.
    So we have an interest in developing entrepreneurs. That is 
a great thing. And I agree with you; the leadership skills that 
have been developed for those serving are remarkable, and there 
are many places for those skills to be exercised. And a 
mentoring program and an example set is always very good, but 
sometimes it may get a dream going in your head but you still 
don't know how to follow on and realize it.
    So I am curious with all of you, as in the job-market 
context--we know all the other needs that are out there--and in 
a very dynamic environment, how are you providing assistance or 
programs that reflect the dynamism of our times so that you are 
not outdated from day one as somebody is moving from one--
thinking about one thing to another to another?
    Mr. Randazzo. No, those are all great comments.
    So I think what is really important is, today, if they are 
not able to tell their story,and I am going to let Mr. Mann, he 
has done phenomenal work with having soldiers tell their story, 
but the importance of working together as groups.
    So when we just go to a base, we spend a weekend with them, 
and we just don't leave. We give them scripts and tactics to 
use, whether it is for salary negotiations or it is even a 
script to contact maybe a veteran that works in an organization 
that you may want to work with and then use those scripts to 
get into that organization. Because the days of sending out 
your resume just doesn't work. No one is reading resumes; 
computers are reading resumes. Most jobs are found within an 
organization. So if you can network in and have scripts already 
tailored towards you and you can just kind of tweak them, I 
think it is a very valuable tool. And so those are some of the 
tools.
    And then, when we leave, we set up meet-up groups so they 
can meet up as a group and take ownership of it and have 
organizers within there so that they can hold themselves 
accountable to making LinkedIn connections, you know, to go to 
maybe different events in the community and to network. Very, 
very important.
    Ms. Tsongas. And those follow-on activities would seem to 
be very important. Yeah.
    Mr. Mann. Thank you for that question.
    I work with veterans at a very grassroots level from all 
services, spending a lot of time trying to get our head around 
what is challenging them as they come into transition and then 
going to speak on it. And what I have found is that most of our 
military warriors today, they absolutely love what they do for 
a living. In fact, it satisfies such a high calling for their 
inner purpose, and it is so in line with it, they almost don't 
even think about it.
    But what happens is, when they separate from service, there 
is all this emphasis on getting a job and just stepping into 
civil society, and they kind of leave that inner purpose back 
in their team room, back in their platoon bay, back in their 
ready room, and they are not as aware as they could be and 
should be of what it is that really makes them tick. What 
brought them in the military? What was it that kept them in the 
military in those dark times when they lost buddies and 
friends?
    And when you leave that kind of purpose behind, even if you 
get a great job, and with the kind of caustic combat that they 
have seen, in many cases, it makes transition very tough. So 
just one thing is getting familiar with each warrior's purpose 
well before they transition. You know, that is a very important 
thing.
    The second thing is the ability to tell their story. We are 
hardwired as warriors not to talk about ourselves. We are 
hardwired to talk about our teammates and maybe a few other 
things, but, for the most part, when they step into civil 
society, they are not telling their story. And folks like Mr. 
Randazzo and others, they want to hear their stories, because 
it really has a massive impact. And it has huge healing powers 
on the kind of combat stress that many of these warriors have 
been through.
    So teaching them and empowering them to tell their own 
story is the second thing that we do at Mission America and 
that I work with Bill on.
    And then, finally, we call it ``keeping the light on in the 
team room.'' Military warriors are some of the most 
collaborative, communicative people in the world. We can go 
into any rough spot, and we can figure it out. We will build a 
team around it and get it done. For some reason, when we walk 
into civil society, we don't do that. We don't stay connected 
to the team that we had, and we sure don't build new teams.
    So those are just three areas where we put a lot of 
emphasis to hopefully be position players for TAP and others to 
meet a need that, if we don't address it, it is going to come 
calling at the end.
    Ms. Tsongas. Thank you.
    I have run out of time, and I am sorry, Mr. Mahoney, I 
can't hear your answer.
    Thank you.
    Dr. Heck. I think we will have time for a second round, so 
stand by.
    Mr. Knight.
    Mr. Knight. Thank you, Mr. Chair.
    You know, it is interesting, when I ETS'd [estimated time 
served] out of the Army years and years ago, it was go around, 
make sure that everything is cleared. You know, everybody is 
walking with their briefcase or their folder or whatever. And, 
of course, on your folder, it says, ``I am ETSing, I am going 
back to the world,'' or whatever.
    And, to me, back then, that was it. I was applying to 
college. I was going to college. I had a mission, and I was 
ready to go. But a lot of guys were like, ``I don't know what I 
am going to do. I am going to go home, and I am going to figure 
it out when I get home.'' And that seems to be the problem.
    Now, I live in a real military area, next to a base. A lot 
of retirees, a lot of young folks that are coming home, and a 
lot of people that are trying to transition back into the, kind 
of, private sector. The biggest thing I see is--and I know the 
military has changed since I left, but the biggest thing I see 
is, once they leave the military, there is a little bit of a 
gap there. And I know some of your organizations step up and 
take over that gap. And we have some in my area.
    What do we do with those people that say that they have it 
all figured out? They have done everything that they can, they 
are going to college, or they have a job, or they are--they 
have everything worked out. Because some of those people might 
not have it worked out, and, after a couple years, they figure, 
what the heck am I doing?
    So do we have something that, maybe not tracks them, but 
gives them that card and says, hey, look, we would like to talk 
to you every couple months, or we would like to check in with 
you, just make sure you are doing everything--everything is 
going right?
    Mr. Mahoney. Yes, sir. Good question.
    With our organization, with zero8hundred, we have a case 
management system that drives those follow-on calls. So we have 
the initial call with them right after the class, and then they 
discuss their needs. And as you are kind of alluding to there, 
their needs change over time. They may have everything all 
wired, and then 3 months later they maybe aren't in that 
situation anymore. So those follow-on calls discuss their new 
needs and can connect them to resources.
    And all those calls are recorded in the case management 
system so that, when that navigator goes back, he can refresh 
his memory on his conversation with the customer or client, and 
he can start the conversation from that point.
    But I think having that 21 months of those check-in calls 
can really help the transitioning service member.
    Mr. Mann. Thank you, Mr. Knight.
    One other best practice that I have seen that seems to work 
pretty well that we might think about sharing with the services 
is the smaller organizations like special forces and the Navy 
SEAL, the Honor Foundation, special forces with Next Ridgeline, 
the foundations aligned with those outfits do a pretty good job 
of keeping track of guys as they go deeper into transition. It 
is a little easier to do that.
    But one thing, you know, that might be considered for a 
best practice is, with the services, the foundations that are 
aligned with the services could possibly play a role in that 
deep tracking like that. Because it is an involved process to 
do that. A lot of these guys go off the grid, you know, and 
they kind of go dark, and it is hard to do, even in smaller 
organizations like special forces.
    Mr. Knight. Mr. Chair, I want to thank you, and I want to 
thank these groups. You know, it is a difficult thing, carrying 
a ruck one day in a desert and then, a month later, you are in 
an office and you are looking around at a different 
environment. So it is a difficult transition.
    I appreciate what you are doing.
    Thank you, Mr. Chair.
    Mr. Randazzo. Can I make one comment on that?
    Mr. Knight. Yes, sir. Absolutely.
    Mr. Randazzo. We are only 2 years plus a few months, but we 
gather their personal email addresses, and for those that have 
attended our first event, we keep in touch with them weekly 
with newsletters. And you are right; sometimes when we are 
there it doesn't click. But when they are ready, they are 
ready, and so they will reach out to us.
    So we have had some real good success in getting feedback 
and emails back from maybe a soldier who attended 18 months ago 
and now they are ready.
    Mr. Knight. Very good.
    Thanks, Mr. Chair.
    Dr. Heck. Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    In terms of the transition, what is a briefing on Active 
Duty in terms of on-the-job training opportunities and 
apprenticeship training opportunities run by the VA?
    It is my understanding that there just isn't much of a 
knowledge that the veterans have, in terms of Active Duty 
personnel when they exit the military, about that particular 
option. And so it is in law, but it is dramatically 
underutilized.
    Mr. Randazzo. Are you talking about the last 6 months of 
their service where they can do a job apprentice or job shadow?
    Mr. Coffman. No. When they actually go through the out-
briefings, that it is available to them under the Veterans 
Administration. It is my understanding that the soldiers, 
marines, airmen, and sailors are really not made aware of that 
particular opportunity.
    Mr. Randazzo. Yeah, so I am aware of a program for the last 
6 months of their service.
    Mr. Coffman. Right, yeah.
    Mr. Randazzo. They are allowed to do a program, and maybe 
you are not aware of it, but----
    Mr. Coffman. No, I am aware of that program.
    Mr. Randazzo. Gotcha.
    Mr. Coffman. This is after they leave Active Duty.
    Dr. Heck. That might be a question better suited for the 
second panel.
    Mr. Coffman. Okay.
    Mr. Randazzo. But I think that program, sir, is one of the 
best programs that the military could offer in the VA or the 
DOL [Department of Labor] can offer is a job shadow and 
apprentice. I think that should be emphasized more.
    And I think some of the rules should be laxed on that. It 
is a 50-mile radius. So, for example, Fort Hood is 61 miles 
from Austin, Texas. I mean, there is a lot of growth and 
opportunities in Austin, Texas. JBLM [Joint Base Lewis-McChord] 
to St. Louis--to Seattle, same thing. Fort Bragg, which I was 
just at, to Raleigh that is just outside of that mile radius.
    So I think there are some things that could be tweaked in 
that to make it better.
    Mr. Coffman. Okay.
    Thank you, Mr. Chairman.
    Dr. Heck. We will go around with a second round.
    Mr. Mahoney, I would imagine that, based on the success 
that your program has had, there would be other communities 
interested in trying to replicate what you have done and not 
recreate the wheel. Could you discuss any specific challenges 
you had in establishing your program and how you overcame those 
challenges?
    What I find often is that, when there is a community 
organization or a not-for-profit or somebody who is trying to 
gain access to a base to provide a service, that is usually one 
of the biggest obstacles that they have to overcome. Did you 
face that same thing? And if so, how did you overcome that and, 
as well, any other challenges that you might have had?
    Mr. Mahoney. Yes, Mr. Chairman. We had the Navy on our ops 
committee, which is really the planning committee, and the 
leadership and oversight committee from the start. So we were 
fortunate that Admiral Dixon Smith, who is now the chief of 
Naval Installations Command, was the regional commander--very 
interested in transition and was participating in some of those 
meetings. So he was engaged from the start. We also had a 
representative from Marine Corps Recruit Depot on our 
committee, as well, so that helped.
    But it still, even with that level of engagement, it still 
took about 9 months to get the memorandum of understanding 
through the legal staff at the region. So that was challenging. 
We were very pleased that it did get through and did get 
approved.
    I know that one of the concerns is, if you let one 
organization on base, then you are letting thousands, perhaps, 
on base. And one of the things that we tried to explain is that 
we are really a neutral connector; we are connecting people to 
resources. We are not going to duplicate what many of the other 
great organizations are doing in San Diego. And I know that had 
to be sort of socialized with the nonprofits and the other 
agencies in San Diego. We were happy to have the VA on our 
board, as well. And I think that helped us get past some of 
those challenges.
    Dr. Heck. Thank you.
    Mrs. Davis.
    Mrs. Davis. Thank you.
    I am wondering about scaling up. You know, every time we 
have a really great pilot doing something that works, we often 
want to take that to another level. And sometimes the 
conditions, the personalities, the demographics, what have you, 
that there is something that is different enough and it doesn't 
work.
    What are some of the thoughts that you have about your 
programs? We are going to talk, the next panel, about the 
relationship with the DOD, and so I know that you don't 
necessarily want to get into that. But do you have an interest 
in that? And what do you see as some of the ways that you would 
go about doing that? What do you need from the Congress or, you 
know, from the Department?
    Mr. Randazzo. So, yes, so, definitely, we do want to scale. 
And so online and technology gives us the option to do that. So 
we have an app that we have developed, a transition app, and we 
are coming out with another version here in the next 90 days. 
We also have online programming that will feed them in a good 
sequence of order of different techniques and strategies; as 
well as we have over 140 TED-type videos online that we can 
sequence to them, along with workable, actionable steps they 
can take after watching and take action.
    So, yes, we definitely would like to scale, but we need to 
activate this 18 months prior to them leaving. And I had a 
great conversation before. It should even be maybe 3 or 4 or 5 
years before they transition out, some of these things. And we 
have almost developed a more of a leadership-type role summit 
versus a transition, and that is from some of the CGs that we 
have dealt with and that have sat in our program for 2 or 3 
days.
    Mrs. Davis. Uh-huh.
    Mr. Mann. If I could just offer one thing to that, it is 
understanding that, as a former Army officer, going deeper into 
the life pattern of the service member, that is harder because 
you have a war to fight, you know, you have to retain numbers, 
and you have to do the mission. And that becomes very hard when 
you are trying to train and deploy.
    So one of the things I might suggest, too, in the private-
public partnership realm is some kind of collaborative council 
that meets with entrepreneurs and leaders and military 
leadership and even military personnel serving at the lower 
levels, to come together and find ways to do that, because 
there are ways.
    I built my real estate portfolio still on Active Duty 
serving in a special forces group. A lot of it was offline work 
that I had to do in my own time, but the point is there are 
ways that this stuff can be provided that isn't necessarily 
intrusive into the daily military cycle.
    But a collaborative forum to do that, you know, it is not 
going to be sorted out here. It is going to take some time and 
the right people in the room.
    Mrs. Davis. Uh-huh.
    Mr. Randazzo. Ma'am, I will just say that we would like to 
expand access to our program. We are growing to meet the large 
demand that we are seeing already. We would like to expand to 
Camp Pendleton this year.
    USD [University of San Diego], as part of their evaluation, 
the third-party evaluation of the outcomes, is also documenting 
how the program was rolled out so it could be potentially 
replicated in other communities.
    And as far as what could be done by government, grant 
programs would be helpful. If there are grants that we could 
pursue for community-based handoffs from the transition 
courses, that would be terrific. And, also, we would be 
pursuing those kind of grants through county and more local 
government, as well.
    Mrs. Davis. Uh-huh. Great.
    Thank you.
    Dr. Heck. Ms. Tsongas.
    Ms. Tsongas. Thank you all again.
    So, as veterans are seeking you all out for one reason or 
another, I am curious what they are telling you about what has 
been most effective with regard to the transition services that 
they have been offered through the DOD and where are there 
shortfalls.
    If we could start with you, Mr. Mahoney.
    Mr. Mahoney. I think, from my perspective, the transition 
classes on base are effective if the--you basically get what 
you put into those courses. If the service member goes there 
and is participating and they are anxious to learn and they are 
going to leave there and make progress with their future, that 
can be effective for them. It won't be effective for them if 
they are in the class and not paying attention and focused on 
other things.
    So we have seen that. It is frustrating that there are 
things that are available for them that can be effective that, 
in some cases, they don't take advantage of.
    I think the courses on base also that are directed towards 
education and other specific areas, we refer them back to the 
base for those courses, and they can be effective, as well.
    Ms. Tsongas. Do you hear why there might be some who don't 
take advantage of it? Do you see a reason why some are more 
likely to do it and others not?
    Mr. Mahoney. I would say, ma'am, that it is a little bit of 
complacency. There might be overconfidence in how marketable 
their skills will be when they get out of the service. They may 
not have a realistic expectation of, say, their salary range or 
how long it will take and how much effort it is going to take 
to get employment.
    Ms. Tsongas. Okay.
    Mr. Mann.
    Mr. Mann. Just a little different twist to that. The folks 
that I have talked to, they are sprinting all the way to the 
finish line. They still have dust on their boots, and they 
don't have a lot of time to really process the notion of 
transition. And so, you know, it is a mindset. And it is more 
than just the TAP program. It is getting yourself ready for 
that.
    And so, in many cases, they are going into transition 
having just come off deployments, having just come off training 
missions. And what I hear often is just frustration that 
transition happened so quickly and there just wasn't time to 
prepare. And then they find themselves, you know, in a brand-
new world, trying to figure it out.
    Ms. Tsongas. So it is more a timing issue?
    Mr. Mann. Operational tempo and timing, I think.
    Ms. Tsongas. Okay.
    Mr. Randazzo.
    Mr. Randazzo. I would add, I think it is also a delivery 
issue. I understand--I have not sat through a class. I have 
finally been invited to sit through a class. I am going to sit 
through one at Fort Bragg. But I understand there are hundreds 
of PowerPoints throughout a 5-day period. And a 26-year-old 
soldier who might be transitioning out, a marine, may not--that 
might not be engaging to them. So I think more interaction, I 
think more technology tools.
    And the manuals they receive, I mean, it is 15 pounds of 
manuals. I am not sure if printing those are super-effective. I 
think you can provide those digitally.
    But I think there needs to be more engagement. The one 
thing that I have heard is that the people who deliver this, 
they are rushing through slides. And I have heard from about a 
dozen people who are going through it right now, it is, ``Hey, 
let's get through these last 45 slides, and let's work through 
lunch, and we'll get you guys out of here by 2:30.'' And so I 
don't think that is the message that soldiers need to hear.
    Ms. Tsongas. Thank you.
    Thank you. I yield back.
    Dr. Heck. Mr. Knight, followup? No?
    Mr. Coffman, followup?
    Mr. Coffman. No.
    Dr. Heck. Okay.
    Well, again, I want to thank all of you for coming here 
today and showing us the value of the public-private 
partnership and some of the challenges and obstacles you may 
have faced in bringing your programs to camps, posts, bases, 
and how we can further help you as, you know, some of the 
premiere models out there expand across the Nation and provide 
more of these services to more of our transitioning troops. We 
appreciate your time and your testimony today.
    And we will break and allow the flip of the panels, and 
then we will move into the next panel quickly.
    [Recess.]
    Dr. Heck. Okay. I would like to welcome our second panel to 
the dais.
    We have with us Dr. Susan Kelly, Director of Transition to 
Veterans Program Office in the Office of the Secretary of 
Defense; Major General Burke Whitman, Director of Marine and 
Family Programs Division, U.S. Marine Corps; Brigadier General 
James Iacocca, Adjutant General of the U.S. Army; Mr. Thomas 
Yavorski, Executive Director of the 21st Century Sailor Office, 
representing the Navy; and Mr. Horace Larry, Deputy Chief of 
Staff, Manpower and Personnel, for the U.S. Air Force.
    Again, I would remind the witnesses, if you can, to please 
summarize your testimony to 3 minutes to your best of your 
ability so we can get into the questions.
    And, with that, I will recognize Dr. Kelly.

STATEMENT OF DR. SUSAN KELLY, DIRECTOR, TRANSITION TO VETERANS 
       PROGRAM OFFICE, OFFICE OF THE SECRETARY OF DEFENSE

    Dr. Kelly. Good afternoon, Chairman Heck, Ranking Member 
Davis, distinguished members of the subcommittee. I appreciate 
the opportunity to provide you an update on the Transition 
Assistance Program, TAP, and our united effort to support our 
transitioning service members.
    Since the last time I testified before this subcommittee, 
the Department has fully implemented a redesigned TAP at 206 
sites worldwide. There were four core components to this 
redesign: adopt Career Readiness Standards, CRS, which measures 
a service member's preparedness to depart from Active Duty; 
develop Transition GPS, a curriculum that builds the skills 
needed by service members to meet the CRS; a Capstone event, 
during which commanders verify their members have met Career 
Readiness Standards or, if not, ensure that they receive 
additional training or a warm handover; and implementation to 
the military lifecycle transition model, which aligns 
transition activities with touchpoints across the military 
career.
    We have accomplished these core objectives, and the results 
are clear. The most recent participant assessment data show 
over 80 percent of respondents saying they gained valuable 
information and skills to plan their transition, that the 
training enhanced their confidence in their transition, they 
intended to use what they learned in the classes, and that they 
knew how to access appropriate resources post-separation.
    Between October 2014 and August of 2015, over 150,000 
service members separated from Active Duty. Based on data 
verified by the Defense Manpower Data Center, 94 percent of 
these eligible members met the VOW [Veteran Opportunity to 
Work] Act mandate. Eighty-eight percent either met Career 
Readiness Standards or received a warm handover.
    These results indicate the commitment of the services and 
our partners to prepare members for civilian life. These 
partners include the Departments of Veterans Affairs, Labor, 
and Education, the Small Business Administration, and the 
Office of Personnel Management.
    This cooperation has been institutionalized through the TAP 
interagency governance structure, consisting of an assistant-
secretary-level executive council and the SES [Senior Executive 
Service] and SES senior steering group. These bodies assess and 
modify TAP. And the services are fully engaged with the 
governance to influence the continued improvement of TAP.
    Over the past 2 years, private and public organizations, as 
you have heard, companies, and Federal agencies have recognized 
that service members present an incredible pool of talent, and 
they seek increased opportunities to harness that talent. In 
collaboration with the U.S. Chamber of Commerce's foundation 
Hiring Our Heroes, we have helped shape the environment in 
which employers gain early access to transitioning service 
members and their spouses.
    In 2015, thousands of members attended 18 large-scale 
transition summits at installations in both the U.S. and 
overseas. The Departments of Energy, Agriculture, and Homeland 
Security are actively engaged in targeting service members for 
industry jobs.
    And through the SkillBridge authority, under the Office of 
the Assistant Secretary of Defense for Readiness, a growing 
number of members have developed skills for employment in high-
demand industries.
    My colleagues from the services can share more about the 
programs implemented at their installations.
    There has been tremendous forward movement, but we must 
continue to work with Federal partners and the private sector 
to gather lessons learned, improve the curriculum, instill a 
culture of planning for post-military life, and developing 
pipelines into the national workforce.
    That concludes my statement. I will be happy to take your 
questions.
    [The prepared statement of Dr. Kelly can be found in the 
Appendix on page 60.]
    Dr. Heck. General Whitman.

 STATEMENT OF MAJGEN BURKE WHITMAN, USMC, DIRECTOR, MARINE AND 
          FAMILY PROGRAMS DIVISION, U.S. MARINE CORPS

    General Whitman. Chairman Heck, Ranking Member Davis, 
distinguished members, on behalf of the Marine Corps, I am 
grateful for the opportunity to give you an update on our 
Transition Readiness Program.
    We call it ``transition readiness'' rather than 
``transition assistance'' because it is an essential component 
of the overall readiness of our individual marines and their 
families.
    We transition 30,000 marines out of the Marine Corps ever 
year. Your marines are fighters. They are mostly young, and 
most plan to separate after just one or two tours, maybe 4 to 8 
years of Active Duty service. So we don't wait until the end of 
their service to begin building their transition readiness. We 
begin shortly after the marine enters the Corps and continue 
throughout and even beyond the uniformed career.
    We use a framework that we call the Marine for Life Cycle. 
There are three action points in that cycle--eight action 
points, excuse me, in that cycle. And at three of those, we 
require some specific activities to build transition readiness.
    The first of these mandatory action points occurs when the 
marine arrives at the first permanent duty station, which is 
after boot camp, after follow-on combat training, and after 
their military occupational specialty school. Upon welcome 
aboard at that duty station, they attend our Personal Readiness 
Seminar, which is required at that point. This establishes the 
foundation for the marine's journey through the Corps and 
highlights the available services throughout the Marine for 
Life Cycle, to include transition readiness, individual 
development plans, transition plans, and that kind of thing.
    The second mandatory action point occurs at promotion. 
Before a marine gets promoted to corporal, she or he has to 
take a course we call Your Readiness. This provides them an 
update review of the services and resources available to them 
and the development of her or his individual transition plan.
    And then the final mandatory action point occurs as the 
marine approaches separation and attends the Transition 
Readiness Seminar that Dr. Kelly talked about.
    At the end of this is the Capstone, which, in our case, is 
an exit interview with the commander or designee to ensure 
readiness. That is a key moment. Transition Readiness is a 
commander's program, and we treat it as a commander's 
responsibility to make sure that the marine is ready or, 
instead, to conduct a warm handover.
    In addition to these mandatory components, we do have the 
three track options for higher education, entrepreneurship, or 
career technical training. We also have a number of workshops, 
seminars, apprenticeship programs, and others that we may talk 
about during the questions.
    Also, after departure, a marine is forever a member of 
Marine for Life Network, which is an organized element of our 
Marine for Life Cycle led by marines who maintain networks of 
job opportunities.
    One quick example that I will close with. Major Kyle 
Aldrich, our Marine for Life representative in one particular 
geographical area, maintained a long-term active communication 
with a corporation that might someday hire. And, at one point, 
that person, his contact there, called him, said, ``We've got a 
job opening. It's a hot fill.'' The major immediately gave him 
the resume of a transitioning marine, and that marine just 
recently got the job.
    As the area's Marine for Life representative, as part of 
that network, Major Aldrich's duty was to stay on top of those 
opportunities. That was his mission, and that is what he did.
    We have a lot more to do, and we are working with the 
Department and the other services to try to improve our 
program, as well. And I look forward to answering your 
questions about that. Thank you very much.
    [The prepared statement of General Whitman can be found in 
the Appendix on page 73.]
    Dr. Heck. General Iacocca.

STATEMENT OF BG JAMES IACOCCA, USA, ADJUTANT GENERAL, U.S. ARMY

    General Iacocca. Chairman Heck, Ranking Member Davis, and 
distinguished members of this committee, thank you for the 
opportunity to appear before you on behalf of America's Army.
    The United States Army is committed to ensuring the 
lifelong success of our soldiers as they transition to citizens 
and veterans in civilian society. Our responsibility is to 
inspire soldiers for life by providing essential counseling and 
training throughout a soldier's career to ensure they are ready 
to succeed when they leave Active Duty.
    The Army's Soldier for Life-Transition Assistance Program 
is a commander's program. The program facilitates a soldier's 
transition by ensuring they begin the process early and they 
visit the transition center often and ensures commanders 
provide encouragement and adequate time for soldiers to 
complete transition activities.
    Today, the Soldier for Life-Transition Assistance Program 
serves approximately 110,000 soldiers annually. The program 
provides soldiers with the counseling, employment and education 
workshops, career tracks, and career skill opportunities 
required to achieve the VOW to Hire Heroes Act of 2011, 
commonly known as the VOW Act, and OSD [Office of the Secretary 
of Defense] policies. As a result, the program helps soldiers 
make informed career decisions, be competitive in the 
workforce, and continue to provide positive contributions to 
their community after completing their Active Duty service.
    Currently, the Army is meeting the requirements of the VOW 
Act, with the Active Component at 89 percent, the National 
Guard at 75 percent, and the Army Reserve at 79 percent for 
fiscal year 2015.
    In the last 5 years, we have increased our investment in 
the Soldier for Life-Transition Assistance Program and have 
grown from 54 to 75 centers worldwide and increased transition, 
financial, and educational counselors by 475 personnel, to a 
total of 700 counselors and staff.
    Additionally, the Army established mobile training teams to 
support the National Guard and Army Reserve at home and at 
demobilization stations. To expand our reach, the Army created 
a 24/7 Virtual Soldier for Life-Transition Assistance Center to 
meet the needs of all soldiers, including those deployed in 
Iraq and Afghanistan. And we have TAP 21, an automated system 
that allows commanders to maintain visibility throughout the 
process.
    Focusing on expanding soldiers' career options, the Army's 
Career Skills Program affords transitioning soldiers the 
opportunity to obtain industry-recognized credentials and to 
participate in first-class apprenticeships, on-the-job 
training, job shadowing, internships, and employment skills 
training up to 100 days prior to separation.
    One of those programs is the United Association of Veterans 
in Piping, which provides internships in pipe welding and 
heating, ventilation, and air conditioning. The program has a 
98 percent retention rate, and more than 1,100 soldiers have 
received jobs through this program.
    To conclude, I wish to thank all of you for your continued 
support. The Army is committed to being a leader of the 
Department of Defense transition efforts by preparing and 
connecting our soldiers and our veterans to career and 
education opportunities.
    Chairman Heck and Ranking Member Davis and members of the 
subcommittee, I thank you again for the opportunity to appear 
before you.
    [The prepared statement of General Iacocca can be found in 
the Appendix on page 82.]
    Dr. Heck. Mr. Yavorski.

STATEMENT OF THOMAS YAVORSKI, EXECUTIVE DIRECTOR, 21ST CENTURY 
                    SAILOR OFFICE, U.S. NAVY

    Mr. Yavorski. Chairman Heck, Ranking Member Davis, and 
distinguished members of the subcommittee, thank you for the 
opportunity to update you on Navy's Transition Assistance 
Program.
    Nearly 4 years ago, the Veteran Employment Initiative Task 
Force was formed to develop and improve the Transition 
Assistance Program and the Transition GPS, or Goals, Plan, 
Success, curriculum. We implemented Transition GPS throughout 
the Navy in 2012 through 2014. We have also continued to 
improve classroom delivery by updating Transition GPS software, 
enhancing the WiFi capability for computers in every classroom, 
expanding our delivery approach to accommodate sailors in 
isolated locations, and adding classroom capacity.
    Sailors leaving the Navy today have a far better transition 
experience than was previously available. They have far greater 
insight into the quality veteran benefits they have earned in 
recognition of their service. As part of the interagency 
transition assistance governance structure, the Navy continues 
to meet with the Defense Transition to Veterans Program Office, 
other service representatives, and our interagency partners to 
continuously assess and improve Transition GPS.
    The transition military life cycle incorporates career 
readiness and transition preparation across a sailor's career, 
rather than waiting until they are separating. Aspects of 
Transition GPS are incorporated into the Navy Career 
Development Boards held at key points in the sailor's career.
    Navy Credentialing Opportunities Online, or Navy COOL, 
helps sailors obtain civilian certifications and licenses for 
skills acquired during their service. Since its inception in 
October 2007, Navy COOL has provided over 130,000 
certifications and licenses for over 41,000 sailors in every 
enlisted rating and pay grade.
    Commanding officers are encouraged to authorize eligible 
sailors to pursue employment skills training through the 
Department of Defense SkillBridge initiative during their final 
180 days of Active Duty. For example, the Navy is supporting 
the Solar Ready Vets pilot program in Norfolk in partnership 
with Tidewater Community College and the Department of Energy. 
The Navy continues to work with public and private 
organizations like zero8hundred to provide sailors additional 
transition assistance opportunities.
    Each sailor who selflessly serves our Nation eventually 
separates or retires and, in doing so, has earned our 
unwavering commitment to provide them the tools that will 
position them for success as they transition and continue 
serving our Nation as honored and distinguished veterans.
    I thank you for your steadfast support for all Navy 
sailors, and I look forward to your questions.
    [The prepared statement of Mr. Yavorski can be found in the 
Appendix on page 89.]
    Dr. Heck. Mr. Larry.

    STATEMENT OF HORACE LARRY, DEPUTY DIRECTOR OF AIR FORCE 
  SERVICES, DEPUTY CHIEF OF STAFF FOR MANPOWER AND PERSONNEL, 
                  HEADQUARTERS U.S. AIR FORCE

    Mr. Larry. Thank you, sir.
    Chairman Heck and distinguished members of this 
subcommittee, I am pleased to testify before you today 
regarding transition assistance the Air Force provides to our 
Active Duty, Guard, and Reserve members and their families.
    In 2012, we revamped our Transition Assistance Program with 
a major overhaul that embraced requirements outlined in the 
Veterans Opportunity to Work to Hire Heroes Act and the 
Veterans Employment Initiative. We executed a partnership with 
the staff of the Office of the Secretary of Defense, our fellow 
armed services, the Departments of Veterans Affairs, Labor, and 
Education, as well as the Small Business Administration, and 
the Office of Personnel Management.
    Along the way, we teamed with industry leaders in 
orchestrating a type of revamped Transition Assistance Program 
that is delivering what our members need and want. Through our 
collaborative efforts, the Air Force has created a win-win 
situation where our airmen succeed as employees, students, or 
business owners and as productive members of the private sector 
while in transition from military service.
    The Air Force is committed to furthering collaboration as 
we press forward in delivering the best transition assistance 
possible for our members and families. Thank you for this 
opportunity to testify before you, and I look forward to 
addressing any questions you may have.
    [The prepared statement of Mr. Larry can be found in the 
Appendix on page 97.]
    Dr. Heck. Again, thank you all very much for coming and 
participating today.
    Dr. Kelly, in your testimony, you mentioned a TAP 
interagency organization. So is there representation from the 
private sector on that interagency group, such as entities like 
zero8hundred or American Dream U?
    Dr. Kelly. The TAP interagency governance structure, both 
the executive council and the senior steering group, are made 
up of the Federal agencies as well as the services.
    Dr. Heck. So, in your opinion, is there an opportunity or, 
I mean, would there be a benefit to have representation from 
the private sector, especially those entities that are looking 
to try to offer services to transitioning service members?
    Dr. Kelly. I think if you give the services the opportunity 
to talk about all of their public-private partnerships that 
they are engaged in right now, you will find out that they are 
getting feedback from the program. But, also, I think we have 
evolved from just providing a Transition GPS curriculum and 
meeting Career Readiness Standards. It has been a tremendous 
learning experience over the last couple of years.
    We were very much focused on unemployment of our veterans 
and resolving that issue and working with employers to resolve 
that issue. What we have learned is that employers are now 
coming to us and saying, ``This is a real talent pool, and we 
want early access to that.''
    But the other lesson that we have learned is that this is a 
community issue that is probably best addressed at the 
community level. You heard of the terrific success of 
zero8hundred. He talked about using the 2-1-1 directory for the 
community resources that are in that community. He talked about 
bringing in the employers, bringing in the installation 
commanders.
    So he mobilized or that entire community mobilized their 
community resources and looked at the needs of that community 
and developed a solution. You see that going on in multiple 
places, which some of the installations are part of. You see 
those kinds of communities coming together and saying, how are 
we going to use what we have to either keep these service 
members here because they are a terrific talent pool for us, 
you see it going on in North Carolina, you see it going on in 
Washington State, you see it going on in California. But what 
is happening is that they are developing efforts to address the 
workforce skill gaps in those States and in those communities, 
and that becomes more meaningful.
    Dr. Heck. So is there a process, a formal process, by which 
a program, let's say, like zero8hundred that has done extremely 
well in the San Diego area, is evaluated for potential 
implementation or recommendation to be used in other locations? 
I mean, if we find a private-sector program that seems to be 
working in one area, is there some formal process by which that 
is looked at to see whether or not it can be implemented 
elsewhere?
    Dr. Kelly. Well, the Secretary of Defense then at the time, 
Secretary Hagel, provided guidance to the military departments, 
the Secretaries of the military departments, the Chiefs, and 
the Chairman and provided guidance, saying, look at allowing 
non-Federal entities onto the installations when they are 
providing support to our military members and our families.
    There was very explicit guidance and templates, actually, 
on how to evaluate those entities, but left to the installation 
commanders and those communities to evaluate those programs, 
what was needed by the service members on those installations 
and those families, and how that fit into the community. So 
that authority still is retained by each one of the 
installation commanders.
    And as we see this evolving, it seems to be the community-
level efforts that have the most meaning. And if we look at it 
in the long term, we can build that economic prosperity for our 
States and our communities using the workforce skills of our 
transitioning service members. And I think we have to figure 
out and come to an agreement as to what are our long-term 
goals.
    Dr. Heck. Great.
    My second question will take longer than the 45 seconds I 
have left, so I will wait for the second round.
    Mrs. Davis.
    Mrs. Davis. Thank you very much.
    I actually wanted to ask all of you to just respond to 
anything you heard in their presentations that could be 
problematic in terms of the services or what you would welcome.
    I think, Dr. Kelly, you are suggesting that having the 
community engaged in the activities is very, very valuable. But 
I think it also raises some questions about the capacity of our 
services to respond and, I guess, to be able to spend some 
valuable time interacting with them, as well, in order to make 
that effort go further.
    How is that? What do you say to the organizations that are 
working hard in the communities? And does that say something 
about the fact that maybe you are not totally having a TAP 
program that works for the service members, as well?
    Dr. Kelly. I am sorry, I am not quite clear on what the 
question is.
    Mrs. Davis. I am just wondering about a reaction to what 
you heard and whether there are some instances in which perhaps 
they do get in the way, in some instances, or just the fact 
that you are trying to provide the authority for them to go on 
base becomes problematic in any community. How can they deal 
with that?
    Dr. Kelly. Go ahead.
    General Whitman. We do have to balance at each installation 
the opportunity. We are eager to have the engagements with 
partners, even with hiring partners, to the greatest extent 
that we can. We have to balance that at times with safety 
concerns, security concerns, just installation capacity 
concerns, which may mean sometimes we might want to move 
something off the base. It might not be quite as appealing.
    Each installation is different. That is why it has made 
sense for us so far to let each installation determine how best 
to manage that. At Camp Lejeune, which is not close to a big 
urban area, we manage that pretty differently from the way we 
do at Camp Pendleton, California, which is very close to lots 
of urban, big hiring organizations.
    And we also have to balance the goodness that comes from 
entering into these partnerships with ensuring that we do it 
legally and also fairly, in a way that doesn't give 
preferential treatment to someone that someone else may not 
like.
    But we are doing it in a very robust fashion. You will hear 
from all of us, we are partnering heavily in every one of the 
installations, much more so than in the past.
    General Iacocca. Yes, ma'am. We, too, in the Army allow our 
installation commanders flexibility in the program. And we do 
have to maintain balance of who we allow on post. But, in many 
cases, as you heard, they have access to posts, and our 
soldiers are participating in their programs.
    But one of the things that we are working through is to 
stress to our soldiers to go to transition early and often and 
not wait till they get to the end of their service when they 
are close to transition. And that would allow more time.
    And many of our soldiers are starting to go earlier and go 
more often. And it makes the program easier to digest, rather 
than try to do it in a condensed 5-day program as they are 
getting ready to transition out.
    Thank you.
    Mrs. Davis. Right.
    And anything that is different? I mean, if you find that 
you can work well with these organizations, that is great.
    Mr. Yavorski. I would just like to address one of the 
issues that one of the gentlemen brought up about the 
PowerPoints, in that we recognize that. And that is why we put 
the computers in all the classrooms, the WiFi. It is 
interactive.
    They can bring their own computer in. We have computers for 
all of those--we talked about social media and LinkedIn through 
the VA. And every service member veteran gets 1 year of premium 
free LinkedIn membership. So we are stressing that and teaching 
that in our classes. So we are taking that on board.
    Mrs. Davis. Great.
    Mr. Larry. In terms of access to the bases, we, the Air 
Force, take a similar approach. It is a balancing act, it most 
certainly is, with the force protection and the requirements of 
the base, et cetera. But the other part of that, we do look at 
opportunities to bring on specific agencies or organizations to 
see how they could team with us, as well. We don't have an 
overarching process where it says, here is where we go Air 
Force-wide, but we leave it to the individual installations.
    So we take the GPS TAP program; here is where we start, 
here is how we have to finish, here are the outcomes we see. 
But within that, like at Eglin Base in Florida, look at the 
Boeing Company, we bring them on and say, we have some 
opportunities, and we will work with you. And we give the 
members specifics, as opposed to the job search overall.
    So we do work to embrace the local communities in this 
process.
    Mrs. Davis. Thank you.
    Just going back to the Marines very quickly, and you talked 
about being a Marine for Life. In the other services, do you 
also work with organizations that work with the service member 
after they get out, specifically in your service?
    General Iacocca. I think, in the Army, if there is an issue 
with transition, we do the warm handover with the VA or the 
Department of Labor.
    Mrs. Davis. With the VA. Okay. Thank you.
    Mr. Yavorski. In the Navy, we don't have a ``Sailor for 
Life,'' but we have a lot of those programs in our Fleet and 
Family Service Center and a warm handover and so forth.
    Mr. Larry. Similar with the Air Force, we don't have a 
codified program like the Marines, but we do the warm handover 
and validate that is done.
    Dr. Heck. Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    Can you tell me about, in the transition phase, the 
integration with the Department of Veterans Affairs? To what 
extent do they make themselves available, and how are they 
integrated into what you do?
    Dr. Kelly. The VA's benefits briefings are a mandatory 
briefing. There are no exemptions for any of the service 
members. So that is 6 hours of face-to-face time with the 
benefits briefers. And there are follow-on one-on-one 
appointments after that.
    So you have VA benefits briefings as part of the mandatory 
Transition GPS core curriculum. But VA also volunteered to 
build a curriculum for the career technical training track for 
those service members who want to use their Post-9/11 GI Bill 
to get certifications in the trades. And that course teaches 
them how to choose the best institution, get the most financial 
aid, choose the course of study, and sets them up well to apply 
for those particular institutions.
    So VA is very well integrated across the Transition GPS 
curriculum and on the installations.
    Mr. Coffman. To what extent when members, because a lot of 
the members that leave tend to be, probably, disproportionally 
junior enlisted, junior officers. And so, to what extents are--
and a lot of them have an inactive requirement but have no 
Active Reserve requirement.
    To what extent do their respective services try to sell 
them on continuing their military service in the Active 
Reserves and also potentially getting another--are there 
opportunities to earn a different occupational specialty on 
their way out the door through a Reserve school to fit a unit 
requirement in whatever geographic area they are relocating to?
    Dr. Kelly. Well, on the first point, one of the Career 
Readiness Standards is to go through the interview with the 
Reserve recruiter.
    Mr. Coffman. Oh, great.
    Dr. Kelly. So that is mandatory. We are realistic, in that 
we want to keep the best. So that is a Career Readiness 
Standard for all service members.
    In reference to MOSs, I will let the services speak to 
that.
    General Whitman. We do, we pursue that programmatic piece 
aggressively. And we do offer retraining in occupational skills 
based on the need at the time. We are constantly reassessing 
that, sometimes even with bonuses, to try to get the right 
people in the right place.
    General Iacocca. While in the transition phase, sir, there 
is not an opportunity to train them on a new MOS, but they do 
have opportunities to participate in a career skills program to 
gain new skills that they can use as they transition out of the 
Army.
    Mr. Coffman. No, that would make absolute sense. But so, in 
other words, a lot of times you have Reserve units in their 
geographic area, there is not an MOS match with what they have, 
say, in the Army today and what that unit is in proximity to 
where they are going to live, and so that would require an MOS 
school. And so is that available?
    General Iacocca. Yes, sir, that is available. Once they 
transition, if they go into a Reserve unit where there may be a 
MOS mismatch at the time, they can go to school once they are 
in that Reserve unit.
    Mr. Coffman. Okay, but let me phrase this differently. So 
they are in transition. They decide they do want to re-
affiliate to another unit. They are talked to by the Reserve 
recruiter. So are there orders cut for them when they are 
leaving Active Duty to go to their school before they even 
report into the unit?
    Quite frankly, that was an offer made to me when I was 
leaving the Marine Corps to the Marine Corps Reserves.
    General Iacocca. Sir, I will have to get back to you on 
that. I know that opportunity exists. I don't know if it 
happens--I don't know if they are issued their orders prior to 
leaving. But I will get back to you on that, sir.
    [The information referred to can be found in the Appendix 
on page 107.]
    Dr. Heck. Mr. O'Rourke.
    Mr. O'Rourke. Thank you.
    And, Dr. Kelly, you may have covered this in your 
introductory remarks, and I am sorry I missed them. What is the 
total budget for the Transition Assistance Program?
    Dr. Kelly. The Transition Assistance Program is not 
actually a line item. The activities are spread throughout many 
of the different activities within the military personnel 
system.
    Mr. O'Rourke. Do we have an idea of what it costs us to 
perform these activities?
    Dr. Kelly. We are currently going through the process of 
publishing our DODI [Department of Defense Instruction] and 
publishing that on the Federal Register. And it is in the 
neighborhood of $100 million per year.
    Mr. O'Rourke. Okay.
    And then I know from reading some of the conclusions from 
the 2014 GAO [Government Accountability Office] report, there 
is the recommendation that we do a better job of measuring the 
effectiveness of the TAP program.
    Dr. Kelly. Yes.
    Mr. O'Rourke. What are the measures that we would look at? 
Veterans' unemployment? Percentage who are connected with a job 
within so many months? What are the things that you will 
measure going forward?
    Dr. Kelly. We actually have a TAP evaluation strategy that 
was requested by OMB [Office of Management and Budget] and was 
approved by OMB. It has three pieces to it.
    One is to make sure that the program is implemented that 
meets the law and policy. So we monitor VOW compliance as well 
as Career Readiness Standards that are met by the service 
members; also, customer satisfaction. And we monitor that 
through the Participant Assessment Tool, an anonymous online 
tool, and provide the results of that at the installation level 
every quarter, so even commanders can monitor that at their own 
installation. And then, finally, looking at long-term outcomes.
    For DOD, our input into the evaluation is our VOW 
compliance and our Career Readiness Standards. Our partners on 
the other side of the DD 214 [military discharge document] are 
looking at long-term outcomes--for instance, for Veterans 
Affairs, the use of the Post-9/11 GI bill, the successful use 
of that; persistence rate, the numbers who are actually 
completing courses; as well as a Small Business Administration 
for the entrepreneurship track, how many are still in business 
at certain periods of time; and then for the Department of 
Labor, also looking at unemployment.
    Mr. O'Rourke. So employment is part of that?
    Dr. Kelly. Yes, it is. Yes, it is. But we are in the 
process of looking at even longer-term outcomes. And DOL is 
looking at a quasi-experimental design to look at some more 
results.
    Mr. O'Rourke. And did I understand that you are in the 
planning stage of defining those metrics? Or have you already 
published what those metrics will be and you are measuring and 
you will then publish the results the coming year?
    Dr. Kelly. We have identified some of the measures. With 
some of the measures, we are identifying or tracking 
milestones, because it takes time to put the data collection 
process someplace, as well as the IT [information technology] 
infrastructure to capture the data, and to work through the PII 
[personally identifiable information] issues of data-sharing.
    But we have milestones, and we are tracking those 
milestones. That is one of the purposes of the TAP interagency 
governance structure. And that is looked at every quarter.
    Mr. O'Rourke. And my last question. I appreciate my 
colleague asking about your effectiveness in working with the 
VA. I think one of the things that a separating service member 
is counseled on is their eligibility for health benefits within 
the VA. Tell me what the consequences are of poor performance 
within the VA on access to mental health.
    We have an especially acute situation in El Paso. And I am 
hearing from recently separated service members who are living 
with PTSD [post-traumatic stress disorder], for example, that 
their inability to access health care, mental health care, is 
affecting their ability to pursue employment or, you know, have 
a quality of life that perhaps many of us take for granted.
    Any thoughts on that?
    Dr. Kelly. Well, certainly, Veterans Affairs is given 6 
hours of face time with each transitioning service member to go 
through the VA benefits briefing. That is a mandate. There are 
no exemptions for that. That is tracked. That is one of the 
mandatory attendance and mandatory Career Readiness Standards.
    But one of the basic tenets of the TAP redesign was to 
ensure that connectivity between the installation, wherever any 
service member is transitioning from, to the resources with VA, 
also the resources for DOL. So they are taught how to navigate 
the Web-based tools to identify the resources in their own 
communities and to connect to those staff members in their own 
communities to which they are relocating.
    Past their transition out of Active Duty, that would have 
to be tracked by Veterans Affairs.
    Mr. O'Rourke. Thank you.
    Thank you, Mr. Chairman.
    Dr. Heck. Thank you.
    Well, that bell signified the votes series, so we will 
forgo a second round of questions. My second question I will 
submit for the record.
    Again, I want to thank all the witnesses on both panels for 
taking the time to be here and for hanging with us through our 
hour-long delay. I appreciate what you are doing for our 
service men and women as they prepare to take on their civilian 
second careers.
    And until we see you at the next hearing, we will be 
adjourned.
    [Whereupon, at 5:00 p.m., the subcommittee was adjourned.]

    
=======================================================================

                            A P P E N D I X

                            October 28, 2015

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            October 28, 2015

=======================================================================

            
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                            October 28, 2015

=======================================================================
    

      

             RESPONSE TO QUESTION SUBMITTED BY MR. COFFMAN

    General Iacocca. Transitioning RA Soldiers do not get training or 
schooling required for a new Reserve Component (RC) MOS or unit while 
they are still on active duty. If a Soldier transitions from active 
duty and joins the Reserve Component (RC) and that Soldier has already 
signed into his or her RC unit, then the RC funds the training 
(assuming it is a ``will-train'' position) after he/she transitions off 
of active duty. In some cases that training happens immediately after 
the transition, and in other cases it may happen months post-
transition. The exception to this norm is the 365 Pilot Training 
Program at Fort Hood. That pilot allows a Soldier to train in a new 
military occupational specialty prior to transitioning off of active 
duty from the Regular Army. The Army Marketing and Research Group 
funded this pilot for Fiscal Year 2015. However, funds are still 
pending for Fiscal Year 2016. The program is on track to expand to Fort 
Bragg later this year pending the release of a third fragmentary order 
and additional funds.   [See page 28.]

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            October 28, 2015

=======================================================================

      
    

                    QUESTIONS SUBMITTED BY MR. WALZ

    Mr. Walz. It is encouraging to learn of the continued emphasis and 
on-going successful development of the Transition Assistance Program? 
Looking forward, what additional assistance from Congress, if any, do 
you require in order to increase the effectiveness of the program?
    Dr. Kelly. The Department is very appreciative of the support 
Congress, and this Committee in particular, has given to our 
transitioning Service members. We would appreciate your continued 
support and assistance in directing your constituent Service members 
to:
    <bullet>  register at an American Job Center and take advantage of 
the programs and services they provide regarding employment assistance;
    <bullet>  apply for VA benefits immediately, if they did not do so 
prior to separation; and
    <bullet>  use their robust Post-9/11 G.I. Bill wisely.
    Congress can continue to support TAP by encouraging employers in 
your respective districts to take advantage of the job announcement, 
skills training, and placement opportunities available to them at the 
American Job Centers in your state. The American Job Centers now have 
millions of dollars in funding to help employers develop new 
apprenticeships and skills training that are needed in the local 
economies. All jobs are local. The more employers engage with the local 
American Job Centers, the more Veterans can return to their local 
communities and look forward to economic opportunity.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. KNIGHT
    Mr. Knight. Do we have a system in place for ensuring every vet's 
``hand-off'' has succeeded 6, 12, 24 months down the road? How are 
service men and women ``tagged and tracked,'' so to speak, by TAP?
    Dr. Kelly. The Department of Defense's authority and ability to 
track a Service member ends once a Service member separates from the 
military. However, as members of the TAP interagency governance body, 
the Department of Veterans Affairs (VA), the Department of Labor (DOL), 
and the Small Business Administration are working on developing long-
term outcome indicators/measures of TAP. The successful use of the 
Post-9/11 G.I. Bill for completion of a college degree and the new 
business formation rate for those veterans interested in pursuing 
entrepreneurship are two examples of ensuring long-term success. 
Additional long-term, outcome-oriented evaluations are in development 
by the VA and DOL to further strengthen the interagency evaluation 
approach and ensure that the TAP is continuously improved. For example, 
VA intends to conduct a survey to veterans (post-transition) on the 
value of the TAP. Due to the Department of Defense's limited role after 
a Service member separates, our TAP interagency partners are better 
suited to provide additional data on the long-term effectiveness of 
TAP.
    Mr. Knight. What percent of service men and women leaving the Armed 
Forces today who want jobs transition to jobs within 6 months? And 
within a year?
    Dr. Kelly. The Department of Defense's authority and ability to 
track a Service member ends once a Service member separates from the 
military. Our Transition Assistance Program (TAP) interagency partners, 
particularly the Departments of Veterans Affairs and Labor, have 
mechanisms in place and in development to assess such outcomes of 
Veterans. In particular, the Department of Labor, through its National 
Longitudinal Survey, is able to track the employment situation over 
time of some Veterans. Due to the Department of Defense's limited role 
after separation, the Department of Labor may be better suited to 
supply this data.
    Mr. Knight. What letter grade, or qualitative assessment, would 
each of the military branches give the TAP today? How much has TAP 
improved since 2011?
    General Whitman. Our qualitative assessment of TAP is that it is a 
vital, useful tool for Marines; it has improved significantly since 
2011. TAP continues to gain momentum as we move forward in the Marine 
For Life Cycle with increased interagency collaboration, an improved 
governance process, and annual reviews and updates. Metrics have been 
put in place to track its effectiveness. Working groups with 
interagency partners discuss challenges and implement improvements in 
the program. Through these efforts, we remain actively involved and 
committed to ensuring Marines are successfully meeting in-service and 
post-transition goals.
    Mr. Knight. What letter grade, or qualitative assessment, would 
each of the military branches give the TAP today? How much has TAP 
improved since 2011?
    General Iacocca. VOW to Hire Heroes Act compliance through third 
quarter Fiscal Year 2015 was 90% for Active Component. For this reason 
the Army overall correlates as an ``A-'' for executing Transition 
Assistance Program (TAP) services, whereas Army was a ``B'' in Fiscal 
Year 2014 with Active Component at 83% compliance.
    The Army is doing well and improving year after year meeting the 
law and the additional White House components of TAP. In the last five 
years, the Army's Soldier for Life-Transition Assistance Program (SFL-
TAP) has grown from 54 to 75 centers worldwide, and from 225 to 700 
transition, financial, and education counselors and staff. The program 
added a center in Kuwait, and established mobile transition teams to 
support the National Guard and Army Reserve at home and at 
demobilization stations. Additionally, the Army created a 24/7 Virtual 
SFL-TAP Center to meet the needs of remotely located Soldiers, those 
deployed in Iraq and Afghanistan, and for any Soldier that needed to 
receive transition services telephonically or virtually.
    Furthermore, the Army has improved Soldiers' opportunities to reach 
their post-transition career and education goals by establishing a 
Career Skills Program. The Career Skills Program affords transitioning 
Soldiers the opportunity to obtain industry-recognized credentials, the 
opportunity to participate in first-class apprenticeships, on-the-job 
training, job shadowing, and employment skills training up to 180 days 
prior to transitioning from the Army.
    Finally, the Army is working to improve the accuracy of our TAP 
assessments by increasing the quality and quantity of post-transition 
feedback from our partnering agencies of the Departments of Veterans 
Affairs and Labor, and the Internal Revenue Service.
    Mr. Knight. What letter grade, or qualitative assessment, would 
each of the military branches give the TAP today? How much has TAP 
improved since 2011?
    Mr. Yavorski. I would give the Navy Transition Assistance Program 
(TAP) a grade of B+, and improving. Sailor feedback reflects that 86 
percent agreed, or strongly agreed, that TAP was beneficial in helping 
them gain the information and skills to better plan for transition. 
Since 2011, the program has greatly improved as a result of:
    <bullet>  revising the core transition assistance curriculum and 
increasing the length from four days to five days;
    <bullet>  adopting career readiness standards upon which the new 
curriculum is based;
    <bullet>  adding two-day tracks on assessing higher education, 
career technical training, and entrepreneurship. (Sailors can also take 
the Small Business Administration advanced entrepreneurial workshop);
    <bullet>  adding a capstone event to ensure Sailors meet career 
readiness standards, or are provided a warm handoff to partner 
agencies;
    <bullet>  incorporating the transition Military Life Cycle into our 
existing career development program to prepare Sailors for eventual 
transition throughout their military career;
    <bullet>  offering Sailors the opportunity to pursue employment 
skills training during the last 180 days of active duty.
    <bullet>  updating curriculum software, enhancing WiFi capability, 
and adding 2,493 new computers to facilitate an interactive classroom 
environment; and
    <bullet>  improving access to classroom curriculum for remote 
overseas locations.
    We will continue to monitor the effectiveness of Navy TAP with an 
eye towards opportunities for additional program enhancements based on 
sharing lessons learned from the current program across the Department 
of Defense.
    Mr. Knight. What letter grade, or qualitative assessment, would 
each of the military branches give the TAP today? How much has TAP 
improved since 2011?
    Mr. Larry. The Air Force believes an ``A'' should be awarded to 
today's TAP. Since 2011, the Air Force has been sharply focused on the 
redesigned Transition Assistance Program (TAP) to support Airmen as 
they transition back to civilian life. The Air Force prepares our 
Airmen for transition in partnership with the Department of Labor, 
Department of Veterans Affairs, Office of Personnel Management, 
Department of Education and the Small Business Administration. 
Collectively, these partners provide services or support for delivering 
a purposeful Transition Assistance Program that helps ensure 
transitioning Airmen are ready for the next steps in civilian life--
whether as a full-time student, employee and/or business owner--to help 
them in having successful careers. The Air Force remains committed to 
ensuring Airmen, as they depart military service, are ready for the 
challenges and rewards of civilian life and we extend a great deal of 
gratitude to our private sector partners.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
